                                   SOCIAL SECURITY
MEMORANDUM

Date:   April 30, 2003                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Enumeration (A-02-02-11088)


        We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
        measure 18 of the Social Security Administration’s Fiscal Year 2002 performance
        indicators established to comply with the Government Performance and Results Act.
        The attached final report presents the results of one of the performance indicators PwC
        reviewed. The objective of this audit was to assess the reliability of the data used to
        measure the percent of original and replacement Social Security number cards issued
        within 5 days of receiving all necessary documentation.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



    Performance Indicator Audit:
            Enumeration


     April 2003   A-02-02-11088



  AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:
   Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
   Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:
   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM
To:               Office of the Inspector General
From:             PricewaterhouseCoopers LLP
Date:             April 16, 2003
Subject:          Performance Indicator Audit: Enumeration (A-02-02-11088)

The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3 The objective of this audit
was to assess the reliability of the following Fiscal Year (FY) 2002 GPRA performance
indicator:

Performance Indicator                                                          FY 2002 Goal


    Percent of original and replacement Social Security number                  97 percent4
    (SSN) cards issued within 5 days of receiving all necessary
    documentation.

See Appendix A for a description of the audit scope and methodology.


BACKGROUND

SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors and Disability Insurance (OASDI) is authorized under title II of the Social
Security Act (Act) and includes Retirement and Survivors Insurance and Disability
Insurance.5 Through the OASDI program, eligible workers, and sometimes their
families, receive monthly benefits if they retire at an appropriate age or are found to
have a disability that either prevents them from engaging in substantial gainful activity




1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal Year
2002, page 84.
5
    42 U.S.C. § 401 et seq.


Performance Indicator Audit: Enumeration (A-02-02-11088)                                             1
for at least 12 continuous months or can be expected to result in death.6 The
Supplemental Security Income program is authorized under title XVI of the Act and
provides monthly payments to aged, blind and/or disabled individuals based on financial
need and medical requirements.7

The SSN is a nine-digit number assigned to almost everyone in the United States. It
uniquely identifies individuals applying for or receiving benefits and is critical in
implementing SSA’s programs and operations.

SSA assigns SSNs to individuals through the enumeration process. SSA uses the
Modernized Enumeration System (MES) to track and assign SSNs. Individuals apply
for SSNs by filing SS-5 forms at their local field office or by postal mail. Parents of
newborns can obtain SSNs for their children through the enumeration-at-birth process.
SSA has a goal of issuing new and replacement SSN cards within 5 working days of
receiving a completed SS-5 form and its associated documentation.

This report reviews the performance indicator that measures the “Percent of original and
replacement SSN cards issued within 5 days of receiving all necessary documentation.”
The performance indicator is determined by calculating the difference between the date
when all documentation was received and either the date when the SSN was assigned
or when the request for a replacement SSN card was processed. SSA defines the date
when all documentation was received as the date the SSA employee signs and dates
the certification block on the SS-5 form. The SSA employee’s signature indicates that
the SS-5 is complete and all documentation and evidence have been received and
reviewed. The certification block date is entered into the MES system when the SS-5 is
key-entered and processed. A batch computer process assigns the SSN and records
the date the SSN was assigned or when the request for a replacement SSN card was
processed. SSA then prints and mails new and replacement SSN cards via the United
States Postal Service.

To determine the annual percentage of SSNs issued within 5 days of receiving all
necessary documentation, SSA divides the number of records where the date difference
between SSN issuance and receipt of documentation was 5 days or less by the total
number of records where all necessary documentation was received for a month and
then averages the monthly percentage over the entire year.8




6
  42 U.S.C. § 423(d)(1)(A). Disability means in the case of an individual who has attained the age of 55
and is blind, inability by reason of such blindness to engage in substantial gainful activity requiring skills
or abilities comparable to those of any gainful activity in which he has previously engaged with some
regularity and over a substantial period of time. 42 U.S.C. § 423(d)(1)(B).
7
    42 U.S.C. § 1381 et seq.
8
  SSA excludes enumeration-at-birth records from the performance indicator calculation, as described in
the Annual Performance Plan.


Performance Indicator Audit: Enumeration (A-02-02-11088)                                                         2
RESULTS OF REVIEW

We evaluated the processes, controls, and accuracy of the underlying data that support
this performance indicator. Our internal controls test, described below, indicated that
the data was not reliable. We found that SSA has inadequate management controls for
data entry of the certification date in the MES system. We also found that the
performance indicator was calculated incorrectly and had inadequate documentation.

PERFORMANCE INDICATOR DATA WAS NOT RELIABLE

During our review of the performance indicator data, we tested the data quality for a
random sample of 105 records from the MES data history file for June 2002.9 We
compared the SS-5 certification block date from the paper form to the corresponding
date in the MES system to determine whether they matched. We found that 17 of the
105 records sampled had an inaccurate certification date in the MES system. Based on
this test, we estimate the overall error rate for the certification date in the MES system
at 16.2 percent (+/- 7.0 percent at a 95-percent confidence interval). (Additional
information on our controls test can be found in Appendix D.) Given this high error rate,
we found the underlying performance indicator data was not reliable.

To determine the impact of these errors on the performance indicator result, we
recalculated the value of the performance indicator for our sample of June 2002
applications based on the MES system date and the paper SS-5 form. Of the 17 errors
where the dates did not match, 7 changed the value of the performance indicator by
either increasing the processing time from 5 days or less to more than 5 days or by
decreasing the processing time from more than 5 days to 5 days or less. Based on the
certification date in the MES system, 98.1 percent of the records were processed within
5 days. Based on the paper SS-5 form, 95.2 percent of the records were processed
within 5 days. The difference between these numbers was not statistically significant,
as there were errors that increased the processing time and errors that decreased the
processing time that cancelled each other out. However, we cannot be confident that
SSA does not have a systemic error in the population data that will impact the value of
the FY 2002 performance indicator.

We also identified a data integrity issue with the MES history data file. We found 132 of
1,134,522 records with a negative 1-day processing time from the June 2002 MES
history data file. This issue did not have a material impact on the overall performance
indicator result due to the small number of records, but indicates a weakness in the
MES application controls. We found that SSA received these records in Germany or on
the other side of the International Date Line in the Philippines, Mariana Islands, or
Guam. Records key entered early in the morning in Germany could be enumerated late
at night on the previous day in the United States leading to the negative 1-day

9
  The MES history data file is part of the MES system and is used to calculate the performance indicator
results.


Performance Indicator Audit: Enumeration (A-02-02-11088)                                                   3
processing time. Similarly, records received on the other side of the International Date
Line are entered on 1 day and enumerated the previous day in the United States.

Management Controls Were Inadequate

We tested the internal controls for the data entry of the certification date as described
above. We found that 17 of the 105 records tested had an incorrect certification date in
the MES system. This error rate exceeds the allowable rate of 2 errors for a sample of
105 records from the General Accounting Office’s Financial Audit Manual. We
concluded that the management controls for data entry of the certification date were not
operating effectively.

Performance Indicator Results Were Calculated Incorrectly

SSA calculates the value of the performance indicator each month. At the end of the
FY, SSA averages the 12 monthly processing rates to calculate the result for the entire
FY. This method of calculation assumes that SSA processes the same number of
SSNs every month. In fact, a review of SSA workload shows that enumeration requests
varied in FY 2002 from 848,204 in December 2001 to 1,505,109 in August 2002. A
more accurate calculation would divide the annual count of records processed within
5 days by the total number of requests for the year.

We calculated the performance indicator value using SSA’s current method and the
more accurate calculation suggested above for October 2001 through August 2002. We
found a .03 percent difference between the two calculations. While the difference is
relatively small, it could impact the final result for the performance indicator due to
rounding.

Performance Indicator Documentation Was Inadequate

We found that SSA did not maintain current and adequate documentation for the
calculation of this performance indicator. The following items were missing:

          Description of the enumeration process and how data is extracted from that
           process to report the performance indicator.
          Description of data extracts from the MES, where they are stored, and how
           they are used to report the performance indicator.
          Documentation regarding the daily, weekly, and monthly batch processes
           used to report and calculate the performance indicator results.
          Data definitions of each field and data file used in the process.
          Systems documentation on any system edits performed on the data including:
           purges, deletions, and data updates.




Performance Indicator Audit: Enumeration (A-02-02-11088)                                   4
Office of Management and Budget Circular Number A-123, Management Accountability
and Control, section II, page 6, states, in part, that, “The documentation for transactions,
management controls, and other significant events must be clear and readily available
for examination.”

OTHER MATTERS
Since the start of our audit, SSA made several changes to the enumeration process. In
July 2002, the Agency started verifying birth certificates for children born in the United
States 1 year or older for new SSN cards. This can require purchasing a copy of the
birth certificate from the State, which can take several weeks. SSA also started
verifying all non-citizen Immigration and Naturalization Service (INS)10 documents with
the INS for new and replacement SSN cards in September 2002. Depending on
availability of INS information, this can take several weeks, or more than a month.
Since SSA does not certify that all documentation is received until after these
verifications are complete, these changes should not impact their ability to process new
and replacement SSN card requests within 5 days. However, any delays performing
these verifications will not be captured and reported as part of this performance
measure. We believe SSA should internally monitor the processing time for the
verifications to ensure they are reasonable.

CONCLUSIONS AND RECOMMENDATIONS

We found that the data SSA used to calculate the performance indicator was unreliable.
We found that the performance indicator had inadequate management controls, was
calculated incorrectly, and had insufficient documentation. Our recommendations are
as follows:

1. Improve management controls

We recommend that SSA improve management controls for data entry of the
certification date to ensure that the correct date is entered into the MES system. For
example, SSA could conduct random audits to compare the paper SS-5 form with the
MES system data to ensure the date is entered correctly.

2. Ensure processing times are accurate

We recommend that SSA include additional date edits so that processing times are
accurately calculated.



10
  The role of the INS was assumed by the Department of Homeland Security on March 1, 2003. The
Department's Bureau for Citizenship and Immigration Services currently administers the Nation's
immigration laws.



Performance Indicator Audit: Enumeration (A-02-02-11088)                                          5
3. Calculate performance indicator using exact annual counts

We recommend that SSA calculate this performance indicator by dividing the number of
requests processed within 5 days by the total number of requests for the FY.

4. Document the performance indicator calculations

We recommend that SSA document its methodology to calculate the performance
indicator results.

AGENCY COMMENTS

SSA agreed with Recommendation 1. SSA disagreed with Recommendation 2 since it
did not impact the overall performance indicator result and there are limited Agency
resources for system changes. SSA did not object to Recommendation 3; however,
they stated that with limited Agency resources for system changes, they would not
pursue the recommendation since the difference in the performance indicator
calculation was .03 percent. With respect to Recommendation 4, SSA stated that the
Agency no longer externally reports this performance indicator.

PWC RESPONSE

We understand that Agency resources are limited for system changes to address
Recommendations 2 and 3. We therefore recommend that SSA address records with
negative processing times by adding date edits (Recommendation 2) within its list of
planned system changes and when other MES changes are planned. In the meantime,
SSA could address the negative processing times at the backend of the process when
calculating the final performance indicator result. We also recommend that SSA make
software changes to use exact counts (Recommendation 3) when changes to the MES
are scheduled. Since the raw numbers for exact counts are available, SSA could verify
the performance indicator results manually in the interim. If SSA plans to continue to
report the performance indicator results internally, we recommend it document the
calculation based on good management practices (Recommendation 4).




Performance Indicator Audit: Enumeration (A-02-02-11088)                               6
                                             Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Acronyms
APPENDIX C – Flowcharts and Descriptions
APPENDIX D – Internal Controls Test
APPENDIX E – Agency Comments




Performance Indicator Audit: Enumeration (A-02-02-11088)
                                                                    Appendix A
Scope and Methodology
We conducted this audit to examine the performance related to timeliness in issuing
original and replacement Social Security number cards. We evaluated the underlying
data and calculations for this performance indicator and reviewed its’ controls and
documentation. Our audit was performed from May 1, 2002 through December 18,
2002 as follows:
   •   Reviewed Office of the Inspector General (OIG) reports related to the
       enumeration process including:
             Social Security Administration (SSA) OIG, Social Security Number
              Integrity: An Important Link in Homeland Security (A-08-02-22077), May
              2002.
             SSA OIG, Effectiveness of Internal Controls in the Modernized
              Enumeration System (A-08-97-41003), September 2000.
             SSA OIG, Performance Measure Review: Reliability of the Data Used to
              Measure Social Security Number Request Processing (A-02-99-01009),
              March 2000.
             SSA OIG, Performance Measure Audit: Timely Issuance of Social Security
              Number Cards (A-02-97-93003), April 1998.
   •   Obtained an extract of 3 months of enumeration data (June through
       August 2002) from the Modernized Enumeration System (MES);
   •   Obtained a random sample of 105 SS-5 forms and compared data from the
       forms to data in the MES system to ensure data integrity and test data entry
       internal controls; and
   •   Tested the data extract for various data quality controls.
In conducting this audit, we also:
   •   Reviewed the SSA’s Performance and Accountability Report for Fiscal Year (FY)
       2001, SSA’s Annual Performance Plan for FY 2001, and SSA’s Revised
       Performance Plan for FY 2002 to determine related milestones, definition, and
       data sources for each performance indicator;
   •   Reviewed Office of Management and Budget Circular No. A-11 Part 6:
       Preparation and Submission of Strategic Plans, Annual Performance Plans, and
       Annual Program Performance Reports (June 2002) to ensure that the
       performance indicator is appropriate; and
   •   Interviewed the individuals working with the performance indicator to gain an
       understanding of the data, the process to calculate the data, and any related
       reporting processes.


Performance Indicator Audit: Enumeration (A-02-02-11088)                               A-1
Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland and
SS-5 testing. The procedures we performed were in accordance with the American
Institute of Certified Public Accountants’ Statement on Standards for Consulting
Services and the General Accounting Office’s Government Auditing Standards (“Yellow
Book”) for performance audits.




Performance Indicator Audit: Enumeration (A-02-02-11088)                        A-2
                                                            Appendix B
Acronyms
FO            Field Office
FY            Fiscal Year
GAO           General Accounting Office
GPRA          Government Performance and Results Act
INS           Immigration and Naturalization Service
MES           Modernized Enumeration System
MI            Management Information
OIG           Office of the Inspector General
OASDI         Old-Age, Survivors and Disability Insurance
SSA           Social Security Administration
SSN           Social Security Number




Performance Indicator Audit: Enumeration (A-02-02-11088)
                                                           Appendix C
Flowcharts and Descriptions




Performance Indicator Audit: Enumeration (A-02-02-11088)
   Enumeration Process:


                                                                    FO enters Form                                         Compared to
     Applicant with all required          Is individual
                                                                    SS-5 into MES                                          NUMIDENT
    documentation requests new           interviewed at     Yes
                                                                   through interview         Processed through the            and
     or replacement SSN card                   FO?
                                                                     (online) mode                   MES                   ALPHIDENT



                                               No


                                                                                               Enumeration file is
                                        FO receives Form
                                                                   FO enters SS-5                 assigned an
                                            SS-5 and                                                                      Is Enumeration
                                                                  into MES through           “Investigate" message   No
                                         documentation                                                                     request valid?
                                                                   the batch mode              and researched for
                                          through mail
                                                                                                      fraud

                                                                       Yes



       Enumeration file is
           assigned a                       New and                                              Vender carriers
                                                                   SSN cards are
     completed status and               replacement SSN                                        deliver SSN cards
                                                                  sent to mailroom
     assigned a new SSN                 cards are printed                                       to the post office
     if an original request
                                   No



         Is request for
         original SSN?

                                                                           Monthly batch
                                         MI database is                   reports are run.
              Yes
                                         updated daily.
         SSN assigned




Performance Indicator Audit: Enumeration (A-02-02-11088)                                                                             C-1
   Enumeration Process:

       •   The enumeration process begins when applicants with all required documentation request new or replacement Social
           Security number (SSN) cards.
       •   If the applicant is interviewed at the field office (FO), the FO employee enters the Form SS-5 into the Modernized
           Enumeration System (MES) through an “Interview” on-line mode. If the applicant mails the completed Form SS-5 and
           documentation to the FO, the FO employee enters the Form SS-5 into MES through the batch mode.
       •   MES processes the application.
       •   The application is compared to the NUMIDENT and the ALPHIDENT to verify the application is valid.
       •   If the enumeration request is invalid, the file is assigned an “Investigate” status and returned for further research.
       •   If the enumeration request is valid, the file is assigned a completed status.
       •   If the request is for an original SSN card, an SSN is assigned.
       •   The SSN cards are printed and sent to the mailroom.
       •   A third-party vendor picks up the SSN cards and delivers them to the post office.
       •   The management information (MI) database is updated daily.
       •   Monthly reports are produced from the MI database.




Performance Indicator Audit: Enumeration (A-02-02-11088)                                                                            C-2
                                                                         Appendix D
Internal Controls Test
We used the General Accounting Office’s (GAO) Financial Audit Manual to determine
our audit sampling criteria for internal controls related to entry of the certification date in
the Modernized Enumeration System (MES). We received 3 months of MES data for
June through August 2002 from the Social Security Administration (SSA). To test the
internal controls for this process, we randomly selected 105 records from the MES data
history file for June 2002 records.
We obtained copies of the paper SS-5 forms and compared the certification date on the
paper SS-5 form to the corresponding date in the MES system. We also calculated the
processing time based on the certification date on the paper SS-5 form and the date in
the MES system. Our first test determined whether the date on the form matched the
date in the system. The second test assessed the impact on the performance indicator.
For example, if SSA’s processing time was 6 days based on the paper SS-5 form and
1 day based on the MES system, we counted this as an error according to both tests.
First, the paper SS-5 form and MES date did not match. Second, the error changed the
performance indicator result.
Our results were as follows:
      88 records matched (SS-5 certification block date matched MES system date);
      17 records did not match (SS-5 certification block date did not match the MES
       system date);
          7 of the 17 records that did not match also changed the performance indicator
              result by either:
                 Decreasing the processing time from more than 5 days to 5 days or
                  less (2 records); or
                 Increasing the processing time from 5 days or less to more than 5 days
                  (5 records)
          10 of the 17 records that did not match did not change the performance
           indicator results
      103 records were processed within 5 days, based on the paper SS-5 certification
       date, versus 100 records, based on the MES system date.
We conclude that the MES system certification date is not reliable, as the number of
errors (17 out of 105) exceeds GAO’s guidelines in the Financial Audit Manual (2 errors
out of 105 records tested).
Given the above results and conclusions of the internal controls test, we performed
additional calculations with the sample data. Our findings from this internal controls test
are as follows:




Performance Indicator Audit: Enumeration (A-02-02-11088)                                    D-1
      We estimate the overall error rate for the MES data history file for the certification
       date is 16.2 percent (+/- 7.0 percent at a 95-percent confidence interval).
      We calculated the standard deviation to determine whether the difference
       between the performance indicator results for the sample was significant. Based
       on the MES system certification date, 98.1 percent of the requests were
       processed within 5 days in June 2002. Based on the paper SS-5 form
       certification date, 95.2 percent of the requests were processed within 5 days in
       June 2002. We found that the difference between the performance indicator
       results (2.9 percent) was less than the test value (5.09 percent) at a 95-percent
       confidence interval.
The first result quantifies the magnitude of the error rate for the certification date in the
MES system. As a result, we conclude that the performance indicator data is not
reliable. The second result shows that the errors in the MES system certification date
did not result in a statistically significant change to the performance indicator value for
the data sampled. Therefore, we did not find a systemic bias in any one direction for
the performance indicator. However, until the management controls are improved for
data entry of the certification date, we cannot be confident that these errors will not
impact the performance indicator value.




Performance Indicator Audit: Enumeration (A-02-02-11088)                                   D-2
                                                           Appendix E

Agency Comments




Performance Indicator Audit: Enumeration (A-02-02-11088)
                                       SOCIAL SECURITY

MEMORANDUM


Date:   April 3, 2003                                                    Refer To: S1J-3

To:     James G. Huse, Jr.
        Inspector General

From:   Larry W. Dye /s/
        Chief of Staff

Subject: Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit:
        Enumeration” (A-02-02-11088)—INFORMATION


        We appreciate OIG’s efforts in conducting this review. Our comments on the draft
        report content and recommendations are attached.


        Staff questions may be referred to Laura Bell on extension 52636.


        Attachment:
        SSA Response




        Performance Indicator Audit: Enumeration (A-02-02-11088)                             E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: ENUMERATION”
(AUDIT NO. A-02-02-11088)


Thank you for the opportunity to review and comment on the draft report contents and
recommendations. Our responses to the specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should improve management controls.

SSA Response


We agree. Currently our field offices conduct random reviews of SS-5s as part of their
weekly enumeration sample reviews. We will issue a specific request for field offices to
review the certification date block (DCL) for the SS-5 and the Modernized Enumeration
System (MES) "Date all evidence received" (DER) field in their weekly enumeration
sample reviews. We will also remind field offices to ensure the date in the SS-5
certification date block and the DER field on the MES system reflect the date all
required evidence is submitted. We plan to issue the specific request and reminder
notices to the field the first week of April 2003.


Recommendation 2

SSA should ensure processing times are accurate.

SSA Comment

We disagree. The recommendation does not provide any specific information about
what type of edits are being proposed, and the report refers to a problem with a very
small number of foreign cases that caused a one-day negative processing time due to
time differences around the world. In addition, according to the report, the very small
number of cases did not impact the overall performance. Therefore, with limited Agency
resources available for systems changes, we do not plan to pursue a systems project to
address a limited problem that had no impact on overall performance.


Recommendation 3

SSA should calculate the performance indicator using exact annual counts.




Performance Indicator Audit: Enumeration (A-02-02-11088)                             E-2
SSA Comment

We have no objection to using exact annual counts; however, with limited Agency
resources available for systems changes, we do not plan to pursue a systems project to
revise the performance calculation since, according to the report, the difference in
calculation was only .03 percent.


Recommendation 4

SSA should document the performance indicator calculations.

SSA Response

The Agency no longer externally reports on this performance measure. If we report on
the performance measure in the future, we would consider documenting how we
calculate performance results.




Performance Indicator Audit: Enumeration (A-02-02-11088)                           E-3
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.


                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
